UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-2187

ANTHONY DONELL JOHNSON,
Plaintiff - Appellant,
v.
ROWAN HELPING MINISTRIES, Homeless Shelter,
Defendant - Appellee.

Appeal from the United States District Court for the Middle District of North Carolina, at
Greensboro. Catherine C. Eagles, District Judge. (l:17-cv-01073-CCE-JLW)

Submitted: October 29, 2020

Decided: November 9, 2020

Before AGEE, THACKER, and QUATTLEBAUM, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Anthony Donell Johnson, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Anthony Donnell Johnson appeals the district court’s order granting summary
judgment to Defendant on Johnson’s claims of sex discrimination and retaliation under
Title VII of the Civil Right Act of 1964, 42 U.S.C. §§ 2000e to 2000e-17, and disability
discrimination under the Americans with Disabilities Act, 42 U.S.C. §§ 12101 to 12213.
We have reviewed the record and find no reversible error. Accordingly, we affirm for the
reasons stated by the district court. Johnson v. Rowan Helping Ministries, No. l:17-cv01073-CCE-JLW (M.D.N.C. Aug. 29, 2019). We dispense with oral argument because
the facts and legal contentions are adequately presented in the materials before this court
and argument would not aid the decisional process.
AFFIRMED

2

FILED: November 9, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-2187
(1:17-cv-01073-CCE-JLW)

ANTHONY DONELL JOHNSON
Plaintiff - Appellant
v.
ROWAN HELPING MINISTRIES, Homeless Shelter
Defendant - Appellee

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA
ANTHONY DONELL JOHNSON,
Plaintiff,

)
)
)
)

1:17-CV-1073

)

V.

)

ROWAN HELPING MINISTRIES,
Defendant.

)
)
)

ORDER and JUDGMENT
The plaintiff Anthony Johnson worked for the defendant Rowan Helping
Ministries as a Shelter Attendant. After he was fired, Mr. Johnson brought this lawsuit
alleging that the defendant discriminated against him by terminating him for his
disability, Doc. 29 at fl 17-24, and his gender, id. at

25-30, and in retaliation for his

complaints about a supervisor’s sexual harassment. Id. at

31-35.

The defendant has moved for summary judgment, submitting testimony from
several witnesses confirmed by documentary evidence that the defendant was terminated
because of excessive tardiness, failure to do his job, and repeated complaints by co­
workers. See Doc.. 50 and attachments; Doc. 51 and attachments. In response, Mr.
Johnson submitted a brief in opposition that intersperses legal arguments and factual
assertions with a few documentary exhibits.
Because there are no disputed questions of material fact and the evidence shows
the defendant terminated Mr. Johnson for legitimate job-related reasons, the defendant’s
motion for summary judgment will be granted.

DISCUSSION
Summary judgment is appropriate where evidence in the record “shows that there
is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a); see Celotex Corp. v. Catrett, 477 U.S. 317, 323-25
(1986). A genuine dispute of material fact exists “if the evidence is such that a
reasonable jury could return a verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., All U.S. 242, 248 (1986). In a motion for summary judgment, the moving
party satisfies its burden by showing “an absence of evidence to support the nonmoving
party’s case.” Celotex Corp., All U.S. at 325.
In analyzing a summary judgment motion, the court “takes the evidence and all
reasonable inferences drawn therefrom in the light most favorable to the nonmoving
party.” Henry v. Purnell, 652 F.3d 524, 531 (4th Cir. 2011) (en banc).1 In other words,
the nonmoving “party is entitled to have the credibility of his evidence as forecast
assumed, his version of all that is in dispute accepted, and all internal conflicts in it
resolved favorably to him.” Miller v. Leathers, 913 F.2d 1085, 1087 (4th Cir. 1990) (en
banc) (quoting Charbonnages de France v. Smith, 597 F.2d 406, 414 (4th Cir. 1979)). If,
applying this standard, the court finds “that a reasonable jury could return a verdict for
[the nonmoving party], then a genuine factual dispute exists and summary judgment is
improper.” Evans v. Techs. Applications & Serv. Co., 80 F.3d 954, 959 (4th Cir. 1996).

1 The Court omits internal citations, alterations, and quotation marks throughout this opinion,
unless otherwise noted. See United States v. Marshall, 872 F.3d 213, 217 n.6 (4th Cir. 2017).
2

In response to a motion for summary judgment, “[a] party asserting that a fact...
is genuinely disputed must support the assertion by ... citing to particular parts of
materials in the record, including ... affidavits or declarations.” Fed. R. Civ. P.
56(c)(1)(A). The responding party “may not rest upon mere allegations or denials of his
pleading, but must come forward with specific facts showing that there is a genuine issue
for trial.” Emmett v. Johnson, 532 F.3d 291, 297 (4th Cir. 2008) (quoting Matsushita
Elec. Indus. Co. v. Zenith Radio Corp475 U.S. 574, 587 (1986)); see also Felty v.
Graves-Humphreys Co., 818 F.2d 1126, 1128 (4th Cir. 1987) (noting that there is an
affirmative duty for “the trial judge to prevent factually unsupported claims and defenses
from proceeding to trial”). “Nor can the nonmoving party create a genuine issue of
material fact through mere speculation or the building of one inference upon another.”
Emmett, 532 F.3d at 297 (quoting Beale v. Hardy, 769 F.2d 213, 214 (4th Cir. 1985)).
Mr. Johnson proceeds pro se. Pro se litigants are accorded some generosity in
construing their pleadings and filings. Armstrong v. Rolm A. Siemans Co., 129 F.3d 1258
(table), 1997 WL 705376, at *1 (4th Cir. Nov. 13, 1997) (“When reviewing apro se
complaint, federal courts should examine carefully the plaintiffs factual allegations, no
matter how inartfully pleaded, to determine whether they could provide a basis for
relief.”). Yet this does not require the court to ignore clear defects, Bustos v.
Chamberlain, No. 3:09-1760-HMH-JRM, 2009 WL 2782238, at *2 (D.S.C. Aug. 27,
2009) (pleadings), or to “conjure up questions never squarely presented in the
complaint.” Brice v. Jenkins, 489 F. Supp. 2d 538, 541 (E.D. Va. 2007). Nor does it

3

require that the court become an advocate for the unrepresented party. Weller v. Dep’t of
Soc. Servs., 901 F.2d 387, 391 (4th Cir. 1990).
Pro se litigants, like all litigants, must comply with the Federal Rules of Civil
Procedure, especially as they relate to the fundamental requirement of presenting
admissible evidence to support claims. In deference to Mr. Johnson’s pro se status, the
court sent him a Roseboro letter on May 7, 2019, informing him that “[his] failure to
respond or, if appropriate, to file affidavits or evidence in rebuttal within the allowed time
may cause the court to conclude that the defendants’ contentions are undisputed.” Doc.
52.

The defendant’s evidence is undisputed that no one connected with the defendant
knew that Mr. Johnson had a disability, see, e.g., Doc. 50 at ffll 13-15; that there were
many problems with Mr. Johnson’s tardiness at work, Doc. 50 at H 9; Doc. 51 at

17,

24, and failure to complete his job duties, Doc. 51 at f 22; and that several female
employees complained about Mr. Johnson’s unwanted attention, Doc. 50 at

16; Doc. 51

at 1120, and his failure to do his share of the work. Doc. 51 at KH 25, 27. Mr. Johnson
received numerous warnings and disciplinary write-ups before he was terminated. See,
e.g., Doc. 51 at

17, 20, 21, 22. Mr. Johnson never complained to the Shelter’s

Executive Director or the Director of Client Services about any sexual harassment by his
supervisor. Doc. 50 at H 17; Doc. 51 at H 23.
Despite the Roseboro letter and two extensions of time, see Docs. 53, 54, Mr.
Johnson has presented no affidavits, declarations, deposition testimony, or other evidence
to support his claims or to refute the defendant’s evidence. A party’s brief does not
4

constitute evidence that the court can consider on a motion for summary judgment.
Similarly, statements such as those submitted by Mr. Johnson in his brief that do not
subject the author to the penalty of perjury for any misstatements cannot by themselves
defeat a summary judgment motion. See Turner v. Godwin, No. 1:15cv770, 2018 WL
284978, at *3 (E.D. Va. Jan. 3, 2018); see also United States v. White, 366 F.3d 291, 300
(4th Cir. 2004) (explaining that courts should not consider unsworn arguments as
evidence in opposition to a summary judgment motion).
In contrast, affidavits that are signed under penalty of perjury, such as those of
Sherry Smith, Doc. 51, and Kyna Grubb, Doc. 50, are proper evidence. Moreover,
although a verified complaint may serve as an affidavit for summary judgment purposes,
see, e.g., Smith v. Blue Ridge Reg’l Jail Auth.-Lynchburg, No. 7:17-cv-00046, 2017 WL
6598124, at *2 n.5 (W.D. Ya. Dec. 26, 2017), Mr. Johnson submitted only an unverified
operative complaint in this case. See Doc. 29.
Mr. Johnson did submit some documentary evidence, interspersed with his legal
argument in his brief. See Doc. 55. Most of the documentary exhibits are duplicates of
his performance evaluations that are already in the record, see Doc. 55 at 4-17, and there
are a few screen shots of text messages that appear to be about scheduling. Doc. 55 at
48—49, 51. Even if these unauthenticated screen shots are considered, they do not create
a genuine dispute of material fact; they show only that his supervisor occasionally
notified him of shift changes via text.
In the end, even where a motion for summary judgment is not opposed with
sufficient admissible evidence to create a dispute of material fact, the court will review
5

the motion to make an independent determination whether the moving party is entitled to
summary judgment as a matter of law. See, e.g, Robinson v. Wix Filtration Corp. LLC,
599 F.3d 403, 409 n.8 (4th Cir. 2010). The Court has done so here.
The record is undisputed that Mr. Johnson was fired because he was not a good
employee. He was constantly late, he did not meet his job responsibilities, and he did not
get along with his co-workers. There is no evidence that he was fired because of his
gender or his disability, and there is no admissible evidence that he was retaliated against
for complaining of sexual harassment. Therefore, the defendant’s motion for summary
judgment will be granted.
It is ORDERED AND ADJUDGED that the defendant’s motion for summary
judgment, Doc. 48, is GRANTED and this case is DISMISSED with prejudice.
This the 29th day of August, 2019.

UNITED STATES DISTltfCT^UDGE

6

U.S. District Court
North Carolina Middle District
Notice of Electronic Filing
The following transaction was entered on 9/25/2019 at 10:51 AM EST
and filed on 9/25/2019
JOHNSON v. ROWAN HELPING MINISTRIES
Case Name:
et al
Case Number:
1:17-cv-01073-CCE-JLW
Filer:
WARNING: CASE CLOSED on 08/29/2019
Document
No document attached
Number:
Docket Text:
TEXT ORDER issued by JUDGE CATHERINE C. EAGLES: The
defendant need not to respond to the Plaintiffs Motions at
[61] and [62], pending further order of the Court. (Sanders,
Marlene)

